WAIVER

SUPREME COURT OF THE UNITED STATES

No. 21-125

‘Constantino Basile Los Angeles Film School, et al
(Petitioner) Vv. (Respondent)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.

Please check the appropriate box:
oO lam filing this waiver on behalf of all respondents.
© lonly represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Thorndal Armstrong Delk Balkenbush & Eisinger, a Nevada Corporation

Please check the appropriate box:

© Tam a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)

oO Iam not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk’s Office, 1 First-Street, NE, Washington, D.C. 20543).
———

   
 

 

Signature:
Date: ‘8/13/21

(Type or print) Name Byron Spencer Hollins

© mr. O Ms. O Mrs. © Miss
Firm Hollins Law Firm —_
Address 23801 Calabasas Road #100
City & State Calabasas, CA ; Zip 91302
Phone 818-223-0300. Email byron@hollins.legal

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

Constantino Basile
ce: 4104 Baltic Street
Oxnard, CA 93035
